                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     Fiscal Years 2011 and 2010
                     Financial Statements for the
                     Pesticides Reregistration
                     and Expedited Processing
                     Fund
                     Report No. 12-1-0521                    June 6, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Paul Curtis
                                                   Robert Smith
                                                   Bill Samuel
                                                   Sabrina Jones
                                                   Mairim Lopez
                                                   Sheila May
                                                   Demetrios Papakonstantinou
                                                   Cynthia Poteat
                                                   Myka Sparrow
                                                   Alexandra Zapata-Torres




Abbreviations

EPA           U.S. Environmental Protection Agency
EPM           Environmental Programs and Management
FIFRA         Federal Insecticide, Fungicide, and Rodenticide Act
FMFIA         Federal Managers’ Financial Integrity Act
OIG           Office of Inspector General
OMB           Office of Management and Budget




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-1-0521
                                                                                                          June 6, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Fiscal Years 2011 and 2010 Financial
The Food Quality Protection
                                    Statements for the Pesticides Reregistration
Act requires that we perform        and Expedited Processing Fund
an annual audit of the
Pesticides Reregistration and        Opinion
Expedited Processing Fund
(known as the FIFRA Fund)           We rendered an unqualified, or clean, opinion on EPA’s Pesticides Reregistration
financial statements.               and Expedited Processing Fund financial statements for fiscal years 2011 and
                                    2010, meaning they are fairly presented and free of material misstatement.
Background
                                     Internal Control Material Weakness Noted
The U.S. Environmental
Protection Agency (EPA) is          We noted one material weakness in internal controls. EPA materially understated
responsible for reassessing the     the FIFRA payroll and benefits payable, and related payroll expenses included in
safety of older pesticide           gross costs, in fiscal year 2011. The Agency’s practice of transferring employees
registrations against modern        and expenses and liabilities from FIFRA to the Environmental Programs and
health and environmental            Management Fund for cash flow reasons led to the understatement. The transfer
testing standards. To expedite      removed the base upon which the leave accrual and benefits payable amounts are
this reregistration process,        calculated. As a result, payroll and benefits payable were materially understated.
Congress authorized EPA to          The fiscal year 2010 accruals for FIFRA were $2,269,000 while the fiscal year
collect fees from pesticide         2011 accruals were $17,000. Understatements could impact the opinion on the
manufacturers. The fees are         financial statements and reliance on reported FIFRA financial information.
deposited into the FIFRA Fund.
Each year, the Agency prepares       Compliance With Applicable Laws and Regulations
financial statements that
present financial information       The Agency was in compliance with applicable laws and regulations.
about the fund, along with
information about EPA’s              Planned Agency Corrective Actions
progress in reregistering
pesticides.                         The Agency agreed with our findings and recommendations. The Agency
                                    corrected the FIFRA financial statements to reflect the proper payroll and benefit
                                    payable amounts and indicated it will monitor the FIFRA benefit accrual at year-
                                    end. The Agency’s complete response is in appendix B to this report. We agree
                                    with the Agency’s corrective actions taken and proposed and believe the actions
For further information, contact    adequately address the issues raised.
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120606-12-1-0521.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                           June 6, 2012

MEMORANDUM

SUBJECT:	 Fiscal Years 2011 and 2010 Financial Statements for the
          Pesticides Reregistration and Expedited Processing Fund
          Report No. 12-1-0521


FROM:          Arthur A. Elkins, Jr.


TO:	           Jim Jones
               Acting Assistant Administrator for Chemical Safety and Pollution Prevention

               Barbara Bennett         

               Chief Financial Officer



Attached is our report on the U.S. Environmental Protection Agency’s (EPA’s) fiscal years 2011
and 2010 financial statements for the Pesticides Reregistration and Expedited Processing Fund,
conducted by the Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This audit report represents the opinion of the OIG, and the findings in this
report do not necessarily represent the final EPA position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on the findings in
this audit report. Accordingly, the findings described in this audit report are not binding upon
EPA in any enforcement proceeding brought by EPA or the Department of Justice. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. You should track progress of your corrective actions in the Management Audit Tracking
System.

If you or your staff have any questions regarding this report, please contact Melissa Heist
at (202) 566-0899 or Heist.Melissa@epa.gov, or Paul Curtis at (202) 566-2523 or
Curtis.Paul@epa.gov.
Fiscal Years 2011 and 2010 Financial Statements for the                                                                  12-1-0521
Pesticides Reregistration and Expedited Processing Fund


                                    Table of Contents 

Inspector General’s Report on the Fiscal Years 2011 and 2010 

Financial Statements for the Pesticides Reregistration and 

Expedited Processing Fund 


   Opinion on the FIFRA Fund Financial Statements........................................................                      1


   Evaluation of Internal Controls ......................................................................................      1


   Tests of Compliance With Laws and Regulations .........................................................                     3


   Management’s Discussion and Analysis Section of the Financial Statements .............                                      3


   Prior Audit Coverage.....................................................................................................   4


   Agency Comments and OIG Evaluation .......................................................................                  4



Attachments 


   1      Material Weakness ..............................................................................................     5


          FIFRA Payroll and Benefits Payable Are Understated .........................................                         6


   2      Status of Recommendations and Potential Monetary Benefits .....................                                      8



Appendices

   A      Fiscal Years 2011 and 2010 FIFRA Financial Statements

   B      Agency’s Response to Draft Report

   C      Distribution
              Inspector General’s Report on the 

   Fiscal Years 2011 and 2010 Financial Statements for the 

  Pesticides Reregistration and Expedited Processing Fund



            The Administrator
            U.S. Environmental Protection Agency

            We have audited the Pesticides Reregistration and Expedited Processing Fund
            (known as the FIFRA Fund) balance sheet as of September 30, 2011 and 2010,
            and the related statements of net cost, changes in net position, and budgetary
            resources for the years then ended. These financial statements are the
            responsibility of U.S. Environmental Protection Agency (EPA) management. Our
            responsibility is to express an opinion on these financial statements based upon
            our audit.

            We conducted our audit in accordance with the generally accepted auditing
            standards; the standards applicable to financial statements contained in
            Government Auditing Standards, issued by the Comptroller General of the United
            States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as Amended. These standards
            require that we plan and perform the audit to obtain reasonable assurance as to
            whether the financial statements are free of material misstatements. An audit
            includes examining, on a test basis, evidence supporting the amounts and
            disclosures in the financial statements. An audit also includes assessing the
            accounting principles used and significant estimates made by management, as
            well as evaluating the overall financial statement presentation. We believe that
            our audit provides a reasonable basis for our opinion.

            In our opinion, the financial statements, including the accompanying notes,
            present fairly, in all material respects, the assets, liabilities, net position, changes
            in net position and budgetary resources of the FIFRA Fund, as of and for the years
            ending September 30, 2011 and 2010, in conformity with accounting principles
            generally accepted in the United States of America.

Evaluation of Internal Controls

            As defined by OMB, internal control, as it relates to the financial statements, is a
            process, affected by the Agency’s management and other personnel, that is
            designed to provide reasonable assurance that the following objectives are met:

                    Reliability of financial reporting – Transactions are properly recorded,
                    processed, and summarized to permit the preparation of the financial
                    statements in accordance with generally accepted accounting principles,



12-1-0521                                                                                          1
                   and assets are safeguarded against loss from unauthorized acquisition, use,
                   or disposition.

                   Compliance with applicable laws, regulations, and government-wide
                   policies – Transactions are executed in accordance with laws governing
                   the use of budget authority, government-wide policies, laws identified by
                   OMB, and other laws and regulations that could have a direct and material
                   effect on the financial statements.

            In planning and performing our audit, we considered EPA’s internal control over
            the Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) financial
            reporting by obtaining an understanding of the Agency’s internal controls,
            determining whether internal controls had been placed in operation, assessing
            control risk, and performing tests of controls. We did this as a basis for designing
            our auditing procedures for the purpose of expressing an opinion on the financial
            statements and to comply with OMB audit guidance, not to express an opinion on
            internal control. Accordingly, we do not express an opinion on internal control
            over financial reporting nor on management’s assertion on internal controls
            included in Management’s Discussion and Analysis. We limited our internal
            control testing to those controls necessary to achieve the objectives described in
            OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
            as Amended. We did not test all internal controls relevant to operating objectives
            as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
            (FMFIA), such as those controls relevant to ensuring efficient operations.

            Our consideration of the internal controls over financial reporting would not
            necessarily disclose all matters in the internal control over financial reporting that
            might be significant deficiencies. Under standards issued by the American
            Institute of Certified Public Accountants, a significant deficiency is a deficiency,
            or combination of deficiencies, in internal controls that is less severe than a
            material weakness, yet important enough to merit attention by those charged with
            governance. A material weakness is a deficiency, or combination of deficiencies,
            in internal controls, such that there is a reasonable possibility that a material
            misstatement of the entity’s financial statements will not be prevented, or detected
            and corrected, in a timely basis. Because of inherent limitations in internal
            controls, misstatements, losses, or noncompliance may nevertheless occur and not
            be detected. We noted a matter involving the internal controls and their operations
            that we considered to be a material weakness.

            Material Weakness: FIFRA Payroll and Benefits Payable Are
            Understated

            EPA materially understated the FIFRA payroll and benefits payable, and related
            payroll expense included in gross costs, in fiscal year 2011. The Agency’s
            practice of transferring employees and related expenses and liabilities from
            FIFRA to the Environmental Programs and Management (EPM) Fund for cash



12-1-0521                                                                                       2
            flow reasons led to the understatement. Just prior to year-end, the Office of
            Pesticide Programs, in the Office of Chemical Safety and Pollution Prevention,
            transferred all but one employee from FIFRA to EPM. On average, 141
            employees were assigned to FIFRA throughout fiscal year 2011. The transfer
            removed the base upon which the leave accrual and the benefits payable amounts
            are calculated. As a result, payroll and benefits payable were materially
            understated. The fiscal year 2010 accruals for FIFRA were $2,269,000 while the
            fiscal year 2011 accruals were $17,000.

            Comparison of EPA’s FMFIA Report with Our Evaluation of Internal
            Controls

            OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
            as Amended, requires us to compare material weaknesses disclosed during the
            audit with those material weaknesses reported in the Agency’s FMFIA report that
            relate to the financial statements and identify material weaknesses disclosed by
            the audit that were not reported in the Agency’s FMFIA report.

            For financial statement audit and financial reporting purposes, OMB defines
            material weaknesses in internal control as a deficiency or combination of
            deficiencies in internal control, such that there is a reasonable possibility that a
            material misstatement of the financial statements will not be prevented or detected
            and corrected on a timely basis. The Agency did not report any material weakness
            for fiscal year 2011 impacting the FIFRA Fund; however, we identified a material
            weakness with the Agency’s reporting of payroll and benefits payable. Details
            concerning this material weakness are in attachment 1.

Tests of Compliance With Laws and Regulations

            As part of obtaining a reasonable assurance about whether the Agency’s financial
            statements are free of material misstatement, we tested compliance with those
            laws and regulations that could either materially affect the FIFRA financial
            statements or that we considered significant to the audit. The objective of our
            audit, including our tests of compliance with applicable laws and regulations, was
            not to provide an opinion on overall compliance with such provisions.
            Accordingly, we do not express such an opinion. We did not identify any
            noncompliances that would result in a material misstatement to the audited
            financial statements.

Management’s Discussion and Analysis Section of the Financial Statements

            We reviewed samples of reregistration, amendment, and cancellation actions
            completed in fiscal year 2011 claimed in FIFRA Performance Measure 2 in the
            Management’s Discussion and Analysis, and found all actions sampled were
            supported. We also reviewed documentation for the cumulative status of
            reregistration actions in Performance Measure 2, and found that the reported



12-1-0521                                                                                     3
             cumulative status appears reasonable. There were no claimed fiscal year 2011
             accomplishments for the other performance measures shown in the Management’s
             Discussion and Analysis.

Prior Audit Coverage

             During previous financial statement audits, we reported the following significant
             deficiencies:

                 	 EPA misapplied federal retirement benefit cost factors in calculating
                    fiscal year 2010 imputed costs related to the Civil Service Retirement
                    System and the Federal Employees Retirement System. Imputed costs are
                    costs that are not fully reimbursed.

                 	 We could not assess the adequacy of the Integrated Financial
                    Management System automated controls.

              The Agency has taken action to correct both of these deficiencies by correcting
              the fiscal year 2010 imputed costs in the FIFRA Fund Financial Statements and
              by implementing a new accounting system to replace the Integrated Financial
              Management System in October 2011.

Agency Comments and OIG Evaluation

             In a memorandum dated May 1, 2012, the Agency responded to our draft report.
             The Office of the Chief Financial Officer concurred with our recommendations
             and provided corrective actions for each specific recommendation. We agree with
             the Agency’s proposed corrective actions and believe that they adequately address
             the issues raised. The Agency’s complete response is included as appendix B to
             this report.




Paul C. Curtis
Director, Financial Statement Audits
Office of Inspector General
U.S. Environmental Protection Agency
June 6, 2012




12-1-0521                                                                                        4
                                                                           Attachment 1


                                Material Weakness

                                    Table of Contents


1 – FIFRA Payroll and Benefits Payable Are Understated.................................... 6




12-1-0521                                                                                      5
            1 – FIFRA Payroll and Benefits Payable Are Understated
EPA materially understated the FIFRA Fund’s payroll and benefits payable, and related payroll
expense included in gross costs, in the draft financial statements for fiscal year 2011. OMB
Circular A-136, Financial Reporting Requirements, states, “Liabilities shall be recognized when
they are incurred regardless of whether they are covered by available budgetary resources.” The
Agency’s practice of transferring employees and related expenses and liabilities from FIFRA to
the EPM Fund for cash flow reasons led to the understatement. The fiscal year 2010 accruals for
FIFRA were $2,269,000 while the fiscal year 2011 accruals were $17,000. Understatements
could impact the opinion on the financial statements and reliance on reported FIFRA financial
information.

The annual leave accrual amount is calculated at year-end using the total number of FIFRA
employees multiplied by their hourly rates and accrued leave balances. Just prior to year-end, the
Office of Pesticide Programs transferred all but one employee from FIFRA to EPM. On average,
141 employees were assigned to FIFRA throughout fiscal year 2011. The transfer removed the
base upon which the leave accrual and the benefits payable amounts are calculated. As a result,
payroll and benefits payable were materially understated.

EPA uses the EPM appropriation for a broad range of abatement, prevention, and compliance
activities, and personnel compensation, benefits, travel, and expenses for all programs of the
Agency. Statement of Federal Financial Accounting Standards No. 5 states that liabilities should
be recognized for exchange transactions, such as when a federal employee performs services in
exchange for compensation, when the services have been provided. OMB Circular No. 136,
Financial Reporting Requirements, further classifies liabilities of federal agencies as liabilities
covered or not covered by budgetary resources (e.g., unfunded).

EPA began the practice of moving payroll expenses from FIFRA to EPM in fiscal year 1996.
When FIFRA resources are low, the Agency transfers employees from FIFRA to EPM to keep
FIFRA obligations and disbursements within budgetary and cash limits. As FIFRA fees are
collected, employees are moved back to the FIFRA appropriation. EPA has regularly disclosed
this ongoing practice in prior FIFRA financial statement reports, and this practice is expected to
continue throughout fiscal year 2012. Temporarily moving employees for cash flow reasons
should not impact accruals as long as those employees are continuing the same work. If the
transfers become permanent, FIFRA should recognize a benefit as another appropriation would
be covering the accrued payroll debt.

The process of moving employees and the related payroll expenses and liabilities between
FIFRA and EPM near year-end contributed to the understatement of the FIFRA payroll and
benefits payable, and related payroll expense included in gross costs, in the draft financial
statements for fiscal year 2011. The Office of the Chief Financial Officer should have realized
that the transfer of employees from FIFRA to EMP was only temporary, and computed the
annual leave accrual and payroll benefits payable amounts accordingly.




12-1-0521                                                                                            6
Recommendations

We recommend that the Office of the Chief Financial Officer:

   1.	 Correct the FIFRA financial statements to reflect the proper payroll and benefits payable
       amounts.

   2.	 Closely monitor the payroll and benefit accruals for FIFRA at year-end.

Agency Response and OIG Evaluation

The Agency agreed with our findings and recommendations, and has completed corrective
actions on recommendation 1. The Office of the Chief Financial Officer corrected the FIFRA
financial statements to reflect the proper payroll and benefits payable amounts.

Agency actions on recommendation 2 are pending. The Office of the Chief Financial Officer
indicated it will closely monitor the payroll and benefit accruals for FIFRA at year-end. The
estimated completion date for this corrective action is September 30, 2012.

The Agency’s complete response is included in appendix B to this report. We agree with the
Agency’s proposed corrective actions and believe they adequately address the issues raised.




12-1-0521                                                                                          7
                                                                                                                           Attachment 2


                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion      Claimed   Agreed-To
    No.      No.                          Subject                          Status1      Action Official           Date         Amount     Amount

     1        7     Correct the FIFRA financial statements to reflect        C            Office of the         03/05/12
                    the proper payroll and benefits payable amounts.                 Chief Financial Officer

     2        7     Closely monitor the payroll and benefit accruals for     O            Office of the         09/30/12
                    FIFRA at year-end.                                               Chief Financial Officer




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-1-0521                                                                                                                                            8
                                                                      Appendix A




   FYs 2011 and 2010 PESTICIDES REREGISTRATION
     and EXPEDITED PROCESSING FUND (FIFRA)
               FINANCIAL STATEMENTS




             Produced by the U.S. Environmental Protection Agency 

                     Office of the Chief Financial Officer 

                       Office of Financial Management





12-1-0521

                         TABLE OF CONTENTS

Management’s Discussion and Analysis                                        1   

Principal Financial Statements                                              8   





   12-1-0521              EPA’s FY 2011 Annual FIFRA Financial Statements
            Management’s Discussion and Analysis





12-1-0521           EPA’s FY 2011 Annual FIFRA Financial Statements   1
           MANAGEMENT’S DISCUSSION AND ANALYSIS

The Agency’s Office of Pesticide Programs (OPP) was established to administer the Federal
Insecticide, Fungicide, and Rodenticide Act (FIFRA) to protect public health and the
environment. The law requires the Agency to balance public health and environmental concerns
with the expected economic benefits derived from pesticides. The guiding principles of the
pesticide program are to reduce risks from pesticides in food, the workplace, and other exposure
pathways and to prevent pollution by encouraging the use of new and safer pesticides.

        In accordance with FIFRA and the Federal Food, Drug, and Cosmetic Act (FFDCA), the
pesticide program administers the Revolving Fund for Certification and Other Services
(Tolerance Fund) and the Pesticides Reregistration and Expedited Processing Fund (FIFRA
Fund). As of 1996, fees for both tolerance and reregistration are deposited to the FIFRA
account, which is available to the EPA without further appropriation.

                                Tolerance Program Description

        As part of its authority to regulate pesticides, EPA is responsible for setting "tolerances."
If the pesticide is being considered for use on a food or feed crop or as a food or feed additive,
the applicant must petition EPA for establishment of a tolerance (or exemption from a tolerance)
under authority of the FFDCA. A tolerance is the maximum legal limit of a pesticide residue on
food commodities and animal feed. Tolerances are set at levels that ensure that the public is
protected from health risks posed by eating foods that have been treated with pesticides in
accordance with label directions.

        In 1954, Congress authorized the collection of fees for the establishment of tolerances for
raw agricultural commodities (Section 408 of FFDCA). Congress, however, did not authorize
the collection of fees for food additive tolerances (Section 409 of FFDCA). EPA, therefore, does
not collect fees for food additive tolerances. The Agency also does not collect fees for Agency-
initiated actions such as the revocation of tolerances for previously canceled pesticides. Fees
collected from tolerances for raw agricultural commodities were deposited to the U.S. Treasury
General Fund until 1963 when Congress established the Tolerance Fund.

        In 1996, pesticide reform legislation included provisions for additional fees to support
reregistration activities. Passage of the Food Quality Protection Act (FQPA) of 1996 requires
tolerances to be reassessed as part of the reregistration program. Effective January 1997, all fees
related to tolerance activities were deposited in the FIFRA Fund. With passage of the Pesticide
Registration Improvement Act (PRIA) of 2003 and the Pesticide Registration Improvement
Renewal Act in 2007, no additional tolerance petition fees will be deposited to the FIFRA Fund
through FY 2012.




   12-1-0521                   EPA’s FY 2011 Annual FIFRA Financial Statements                          2
                       Pesticide Reregistration Program Description

        As part of its authority to regulate pesticides, EPA is responsible for re-registering
existing pesticides. The FIFRA legislation, requiring the registration of pesticide products, was
originally passed in 1947. Since then, health and environmental standards have become more
stringent and scientific analysis techniques much more precise and sophisticated. In the 1988
amendments to FIFRA (FIFRA '88), Congress mandated the accelerated reregistration of all
products registered prior to November 1, 1984. The amendments established a statutory goal of
completing reregistration eligibility decisions (REDs) by 1997. The legislation allows for
various time extensions which can extend the deadline by three years or more. The statutory
requirement for the completion of reregistration food-use (REDs) is 2006, in conjunction with
the new tolerance reassessment program. For the non-food-use active ingredient REDs, the
current legal deadline under PRIA for completion of reregistration is October 3, 2008.

        Congress authorized the collection of two kinds of fees to supplement appropriated funds
to support reregistration program: an annual maintenance fee and a one-time reregistration fee.
Maintenance fees are assessed on registrants of pesticide products and were structured to collect
approximately $14 million per year. Reregistration fees are assessed on the manufacturers of the
active ingredients in pesticide products and are based on the manufacturer's share of the market
for the active ingredient. In fiscal years 1992 through 1999, approximately 14% of the
maintenance fees collected, up to $2 million each year, were used for the expedited processing of
old chemical and amended registration applications. Fees are deposited into the FIFRA
Revolving Fund. By statute, excess monies in the FIFRA Fund may be invested. Waivers
and/or refunds are granted for minor use pesticides, antimicrobial pesticides, and small
businesses.

        In 1996, pesticide reform legislation included provisions for additional fees to support
reregistration activities. Passage of the FQPA of 1996 implemented the following changes in the
Pesticide Reregistration Program: reauthorized collection of maintenance fees through 2001 to
complete the review of older pesticides to ensure they meet current standards (increased annual
fees from $14 million to $16 million per year for 1998, 1999, and 2000 only) and required all
tolerances (over 9,700) to be reassessed by 2006. EPA’s 2002 appropriations bill extended
authority to collect maintenance fees by one year for the amount of $17 million; and the FY 2003
appropriations extended the authority to collect fees again by one year in the amount of $21.5
million. Passage of PRIA in FY 2004 extended the authority to collect maintenance fees through
FY 2008 (with annual fee amounts at $26 million in FY 2004; $27 million in FY 2005-2006; $21
million in FY 2007; and $15 million in FY 2008). Passage of the Pesticide Registration
Improvement Renewal Act (commonly known as PRIA 2) on October 9, 2007 extended the
authority to collect maintenance fees through FY 2012 (with annual fee amounts at $22 million
each FY). PRIA 2 includes the provision for use of maintenance fees to offset the costs of
registration review beginning in FY 2008.

        The reregistration process is being conducted through reviews of groupings of similar
active ingredients called cases. There are five major phases of reregistration:

 	      Phase 1 - Listing of Active Ingredients. EPA publishes lists of active ingredients and
        asks registrants whether they intend to seek reregistration. (Completed in FY 1989)

     12-1-0521 	              EPA’s FY 2011 Annual FIFRA Financial Statements                       3
 	      Phase 2 - Declaration of Intent and Identification of Studies. Registrants notify EPA if
        they intend to reregister and identify missing studies. (Completed in FY 1990)

 	      Phase 3 - Summarization of Studies. Registrants submit required existing studies.
        (Completed in FY 1991)

 	      Phase 4 - EPA Review and Data Call-Ins (DCIs). EPA reviews the studies, identifies and
        "calls-in" missing studies by issuing a DCI. A "DCI" is a request to a pesticide registrant
        for scientific data to assist the Agency in determining the pesticide's eligibility for
        reregistration. (Completed in FY 1994)

 	      Phase 5 - Reregistration Decisions. EPA reviews all studies and issues a Reregistration
        Eligibility Decision (RED) for the active ingredient(s). A "RED" is a decision by the
        Agency defining whether uses of a pesticide active ingredient are eligible or ineligible for
        reregistration. The registrant complies with the RED by submitting product specific data
        and new labels. EPA reregisters or cancels the product. Pesticide products are re-
        registered, based on a RED, when it meets all label requirements. This normally takes 14
        to 20 months after issuance of the RED.

                                Research Program Description

        Chemical safety is a major priority of research and decision making at EPA. EPA’s new
integrated Chemical Safety for Sustainability research program is charged with examining the
risks resulting from exposure to pesticides and toxic chemicals. In previous years, this research
was performed under EPA’s pesticides and toxics research program which will be consolidated
in FY 2012 into the Chemical Safety for Sustainability research program. Chemical safety
research is improving the protection of human health and the environment by providing scientific
approaches and information on chemical exposure, hazard and risk. The research program’s
major goals are: (1) to evaluate pesticide and toxic chemicals for potential risks to human health
and the environment; (2) to research ways to produce, use and dispose of new and existing
chemicals using more sustainable methods, (3) emphasizes research efforts targeting
nanomaterials and endocrine disrupting chemicals and (4) uses innovative chemical screening
technologies such as computational toxicology to generate chemical data on the biological
effects of large numbers of chemicals.

The Chemical Safety research program:
   	 Examines chemical properties (inherency): Chemical inherency is the physico-chemical
      characteristics of a pesticide or toxic that influences exposure and toxicity potential.
      Inherency research works to understand the relationships between chemical inherency,
      toxicity potential and specific disease outcomes.
   	 Develops systems models to assess the potential toxicity of chemicals: Systems models
      are developed to research the entire process of how a pesticide or toxic interacts with the
      biological processes of humans and wildlife. The investigation starts with research on
      chemical exposures. It then follows the subsequent interactions between chemical
      exposures and resulting adverse effects to improve the understanding of environmentally
      caused diseases.


     12-1-0521 	               EPA’s FY 2011 Annual FIFRA Financial Statements                         4
   	 Evaluates biomarkers: Biomarkers are biological responses that indicate exposure to a
      pesticide or toxic, an effect from exposure or susceptibility to adverse effects from a
      chemical. Biomarkers research uses linkages to develop biomarker-based predictive tools
      to understand chemical exposure events and predict potential outcomes.
   	 Assesses cumulative risk: Real world chemical exposures are rarely due to a single
      pesticide or toxic. The research assesses the potential human health and environmental
      outcomes that may occur due to multiple and continuous exposures to toxics and
      mixtures, especially those found in consumer products.
   	 Evaluates Chemical Life Cycle: Life cycle considerations research includes studying the
      design, manufacture, and use of a pesticide or toxic. By examining the environmental
      exposures and human and ecological health impacts of a chemical, Life Cycle research
      provides data to inform the design of more sustainable chemicals.
   	 Provides methods for extrapolating chemical data: This research uses available pesticide
      and toxics data to develop approaches that extrapolate possible effects between test
      organisms and human or ecological responses, test and real-world exposure durations,
      and from laboratory to field conditions.
   	 Provides decision makers access to developed databases, tools and models: Using EPA’s
      web-based interactive tools, decision-makers and others interested in pesticide and toxics
      research data can access information from chemical exposure, hazard data, decision-rules
      and predictive models. CSS is working to provide more integrative, holistic information
      for use in pesticide and toxic risk assessment and risk management decisions.

              Enforcement and Compliance Assurance Program Description

        The Pesticide Enforcement and Compliance Assurance Program focuses on pesticide
product and user compliance. These include problems relating to pesticide worker safety,
certification and training of applicators, ineffective antimicrobial products, food safety, adverse
effects, risks of pesticides to endangered species, pesticide containers and containment facilities,
and e-commerce and misuse. The enforcement and compliance assurance program provides
compliance assistance to the regulated community through its National Agriculture Compliance
Assistance Center, seminars, guidance documents, brochures, and other forms of communication
to ensure knowledge of and compliance with environmental laws.

         EPA’s grant support to states’ and tribes’ pesticide programs emphasizes its commitment
to maintaining a strong compliance and enforcement presence. Agency Cooperative Agreement
priorities for FY 2011 – FY 2013 include reducing chemical risks and protecting the underserved
and vulnerable populations. Core program activities include inspections of producing
establishments, dealers/distributors/retailers, e-commerce; imports and exports, and pesticide
misuse. Additionally, through Cooperative Agreement resources we support inspector training
and training for state/tribal senior managers, scientists, and supervisors.




   12-1-0521 	                EPA’s FY 2011 Annual FIFRA Financial Statements                          5
                              Highlights and Accomplishments

Tolerance Performance Measures

       As mandated by PRIA 2, no Tolerance fees were collected and deposited to the FIFRA
Fund in FY 2011.

       Measure: Tolerance re-evaluations.

        Results: The tolerance reassessment program was completed in FY 2007; therefore, no
further tolerance reassessment decisions were needed or completed in FY 2011. At the end of
FY 2007, EPA had completed 9,721 tolerance reassessment decisions, addressing 100% of the
9,721 tolerances that required reassessment.

Reregistration (FIFRA) Financial Perspective

        During FY 2011, the Agency's obligations charged against the FIFRA Fund for the cost
of the reregistration programs and other authorized pesticide programs were $24 million and
136.0 workyears. Of these amounts, OPP obligated $18.8 million of this cost and funded the
136.0 workyears.

        Appropriated funds are used in addition to FIFRA revolving funds. In FY 2011, the
Enacted Operating Plan included approximately $ 38.5 million in appropriated funds for
reregistration program activities. The unobligated balance in the Fund at the end of FY 2011
was $400 thousand.

       The Fund has two types of receipts: fee collections and interest earned on investments.
Of the $22.7 million in FY 2011 receipts, more than 99.9% were fee collections.

Reregistration Program (FIFRA) Performance Measures

      The following measures support the program's strategic goals of Healthy Communities
and Ecosystems as contained in the FY 2010 President’s budget.

       Measure 1: Number of Reregistration Eligibility Documents (REDs) completed.

Results: All Reregistration Eligibility Decisions (REDs) were completed by the end of FY 2008.
No REDs were completed in FY 2011. Of the 613 chemical cases (representing approximately
1,150 pesticide active ingredients), that initially were subject to reregistration, 384 cases have
completed REDs. An additional 229 reregistration cases were voluntarily canceled before EPA
invested significant resources in developing REDs. 613 reregistration cases ( 100%) had
completed the reregistration eligibility decision making process by the end of FY 2008.




   12-1-0521                  EPA’s FY 2011 Annual FIFRA Financial Statements                        6
      Measure 2: Number of products reregistered, canceled, or amended. Over 20,000
products are or eventually will be subject to product reregistration. Many products,
however, contain more than one active ingredient. Since products are reassessed
separately for each active ingredient, EPA will conduct approximately 38,000 product
reviews.

        Results: In FY 2011, 373 products were reregistered; 460 products were amended; 379
products were cancelled; and 6 products were suspended. Currently, a universe of 24,576
products is undergoing or has completed product reregistration. The status of those products at
the end of FY 2011 was as follows: EPA had completed decisions for 16,952 products
(specifically, 4,742 products had been reregistered; 1,639 product registrations had been
amended; 10,545 products were cancelled; and 26 products were suspended); and 7,624
products had actions/decisions pending. The Agency’s goal in FY 2012 is to complete 1,200
product reregistration actions.

      Measure 3: Progress in Reducing the Number of Unreviewed, Required
Reregistration Studies.

        Results: EPA completed the last REDs in 2008, so all necessary studies to make
reregistration eligibility decisions for all active ingredients subject to reregistration have been
reviewed. At this time, the Agency does not plan to spend additional resources examining these
records.


       Measure 4: Number and Type of DCIs Issued to Support Product Reregistration by
Active Ingredient.

        Results: Regarding Data Call-In notices (DCIs) under FIFRA section 3(c)(2)(B) to
support product reregistration for pesticide active ingredients included in REDs, EPA completed
the last remaining REDs and reported DCI information for those REDs in FY 2008. There is no
further activity to report for FY 2011.



       Measure 5: Future Schedule for Reregistrations.

        The last REDs were completed in FY 2008, therefore there are no remaining candidates
for future decisions.




   12-1-0521                   EPA’s FY 2011 Annual FIFRA Financial Statements                        7
                  PRINCIPAL 

            FINANCIAL STATEMENTS





12-1-0521   EPA’s FY 2011 Annual FIFRA Financial Statements   8
                              TABLE OF CONTENTS

Financial Statements

       Balance Sheet                                                                 10     

       Statement of Net Cost                                                         11     

       Statement of Changes in Net Position                                          12         

       Statement of Budgetary Resources                                              13


Notes to Financial Statements

       Note 1.    Summary of Significant Accounting Policies                         14

       Note 2.    Fund Balance with Treasury                                         17         

       Note 3.    Other Assets – Advances to Working Capital Fund                    17 

       Note 4.    General Property, Plant and Equipment                              17

       Note 5.    Other Liabilities                                                  18         

       Note 6.    Payroll and Benefits Payable, non-Federal                          18

       Note 7.    Income and Expenses from Other Appropriations                      19 

       Note 8.    Exchange Revenues, Statement of Net Cost                           21

       Note 9.    Intragovernmental Costs and Revenue                                21

       Note 10.   Reconciliation of Net Cost of Operations to Budget (formerly the
                  Statement of Financing)                                            22





   12-1-0521                    EPA’s FY 2011 Annual FIFRA Financial Statements             9
                                    Environmental Protection Agency 

                                                  FIFRA 

                                              Balance Sheet 

                                    As of September 30, 2011 and 2010 

                                          (Dollars in Thousands)

                                                                   FY 2011                 FY 2010
 AS S ETS
 Intragovernmental:
    Fund Balance With Treasury (Note 2)                     $                3,541     $             4,174
    Other (Note 3)                                                               0                      92
 Total Intragovernmental                                    $                3,541     $             4,266

 Property, Plant & Equipment, Net (Note 4)                                     657                     909
    Total Assets                                            $                4,198     $             5,175




 LIABILITIES
 Intragovernmental:
    Accounts Payable and Accrued Liabilities                                   202                    163
    Other (Note 5)                                                             326                    200
 Total Intragovernmental                                    $                  528     $              363

 Accounts Payable & Accrued Liabilities                     $                270       $               265
 Payroll & Benefits Payable (Note 6)                                       3,213                     2,269
 Other (Note 5)                                                            7,052                     7,039
    Total Liabilities                                       $             11,063       $             9,936


 NET POS ITION
 Cumulative Results of Operations                                            (6,865)             (4,761)

 Total Net Position                                                          (6,865)             (4,761)

    Total Liabilities and Net Position                      $                4,198     $             5,175




                      The accompanying notes are an integral part of these statements.




12-1-0521                     EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                             10
                            Environmental Protection Agency
                                         FIFRA
                                  Statement of Net Cost
                    For the Years Ended September 30, 2011 and 2010
                                 (Dollars in Thousands)
                                                        FY 2011                 FY 2010

  COS TS

       Gross Costs (Note 9)                        $              25,141 $                25,877
       Expenses from Other Appropriations (Note 7)                35,439                  36,268
           Total Costs                                            60,580                  62,145
       Less:
       Earned Revenue (Notes 8, 9)                                22,688                  23,231

  NET COS T OF OPERATIONS (Note 10)               $               37,892   $              38,914




                 The accompanying notes are an integral part of these statements.




12-1-0521                  EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                   11
                              Environmental Protection Agency 

                                           FIFRA 

                            Statement of Changes in Net Position 

                      For the Years Ended September 30, 2011 and 2010 

                                   (Dollars in Thousands)




                                                                        FY 2011          FY 2010

     Net Position - Beginning of Period                                    (4,761)          (3,711)
         Beginning Balances, as Adjusted                       $           (4,761) $        (3,711)

     Budgetary Financing S ources:
           Nonexchange Revenue - Securities Investment                          2                7
           Income from Other Appropriations (Note 7)                       35,439           36,268
        Total Budgetary Financing Sources                      $           35,441    $      36,275

     Other Financing S ources (Non-Exchange)
           Imputed Financing Sources                                           347           1,589
        Total Other Financing Sources                          $               347   $       1,589

         Net Cost of Operations                                           (37,892)         (38,914)

         Net Change                                                        (2,104)          (1,050)

     Cumulative Results of Operations                          $           (6,865) $        (4,761)




                  The accompanying notes are an integral part of these statements.




12-1-0521                    EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                      12
                              Environmental Protection Agency

                                           FIFRA 

                              Statement of Budgetary Resources 

                      For the Years Ended September 30, 2011 and 2010 

                                   (Dollars in Thousands) 


                                                                      FY 2011               FY 2010

BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1:                $               1,746   $        4,133
Budgetary Authority:
Spending Authority from Offsetting Collections
  Earned:
      Collected                                                                22,690           23,237
  Change in Unfilled Customer Orders:
      Advance Received                                                             14           (1,151)
       Total Spending Authority from Offsetting Collections                    22,704           22,086
Total Budgetary Resources                                       $              24,450   $       26,219

STATUS OF BUDGETARY RESOURCES
Obligations Incurred:
   Reimbursable                                                                24,046           24,473
Total Obligations Incurred                                                     24,046           24,473
Unobligated Balances:
   Apportioned                                                                    404            1,746
Total Unobligated Balances                                                        404            1,746
Total Status of Budgetary Resources                             $              24,450   $       26,219

CHANGE IN OBLIGATED BALANCE
Obligated Balance, Net:
  Unpaid Obligations, Brought Forward, October 1                $            2,427      $         2,990
      Adjusted Total                                                         2,427                2,990
     Total Unpaid Obligated Balance, Net                                     2,427                2,990
Obligations Incurred, Net                                                   24,046               24,473
Less: Gross Outlays                                                        (23,337)             (25,036)
    Total, Change in Obligated Balance                                       3,136                2,427

Obligated Balance, Net, End of Period:
  Unpaid Obligations                                                            3,136            2,427
     Total, Unpaid Obligated Balance, Net, End of Period        $               3,136   $        2,427

NET OUTLAYS
Net Outlays:
  Gross Outlays                                                 $           23,337      $        25,036
  Less: Offsetting Collections                                             (22,704)             (22,086)
Total, Net Outlays                                              $              633      $         2,950

                        The accompanying notes are an integral part of these statements.



12-1-0521                    EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                           13
                              Environmental Protection Agency 

                                           FIFRA 

                               Notes to Financial Statements 

                                   (Dollars in Thousands) 


Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

The U.S. Environmental Protection Agency (EPA or Agency) was created in 1970 by executive
reorganization from various components of other Federal agencies in order to better marshal and
coordinate Federal pollution control efforts. The Agency is generally organized around the
media and substances it regulates -- air, water, land, hazardous waste, pesticides and toxic
substances.

The FIFRA Revolving Fund was authorized in 1988 by amendments to the Federal Insecticide,
Fungicide and Rodenticide Act (FIFRA). The 1988 amendments mandated the accelerated re-
registration of all products registered prior to November 1, 1984. Congress authorized the
collection of maintenance fees to supplement appropriations to fund re-registration and to fund
expedited processing of pesticides. Maintenance fees are assessed on registrants of pesticide
products. FIFRA also includes provisions for the registration of new pesticides (funded in part
from the PRIA or Pesticide Registration Fund), monitoring the distribution and use of pesticides,
issuing civil or criminal penalties for violations, establishing cooperative agreements with the
states, and certifying training programs for users of restricted chemicals. Appropriated funds,
with the exception of partial funding of registration from Pesticide Registration Service Fees in
the Pesticide Registration Fund, pay for these activities. The FIFRA Revolving Fund is
accounted for under Treasury symbol number 68X4310.

The FIFRA fund may charge some administrative costs directly to the fund and charge the
remainder of the administrative costs to Agency-wide appropriations. Costs funded by Agency-
wide appropriations for FYs 2011 and 2010 were $35,439 thousand and $36,268 thousand,
respectively. These amounts are included as Income from Other Appropriations on the
Statement of Changes in Net Position and as Expenses from Other Appropriations on the
Statement of Net Cost.

B. Basis of Presentation

These financial statements have been prepared to report the financial position and results of
operations of the EPA for the Reregistration and Expedited Processing (FIFRA) Revolving Fund
as required by the Chief Financial Officers Act of 1990. The reports have been prepared from
the books and records of the EPA in accordance with Office of Management and Budget (OMB)
Circular A-136 Financial Reporting Requirements, and the EPA's accounting policies which are
summarized in this note. These statements are therefore different from the financial reports also
prepared by the EPA pursuant to OMB directives that are used to monitor and control the EPA's
use of budgetary resources. The balances in these reports have been updated from the EPA
consolidated financial statements to reflect the use of FY 2011cost factors for calculating


12-1-0521                EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                    14
imputed costs for Federal civilian benefits programs. These updates impact the Balance Sheet,
Statement of Net Cost, and Statement of Changes in Net Position.

C. Budgets and Budgetary Accounting

Funding of the FIFRA Revolving Fund is provided by fees collected from industry to offset costs
incurred by the EPA in carrying out these programs. Each year the EPA submits an
apportionment request to OMB based on the anticipated collections of industry fees.

D. Basis of Accounting

Generally Accepted Accounting Principles (GAAP) for Federal entities is the standard
prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the official
standard setting body for the federal government. The financial statements are prepared in
accordance with GAAP for federal entities.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of Federal funds. All
interfund balances and transactions have been eliminated.

E. Revenues and Other Financing Sources

The EPA’s 2002 appropriations bill extended authority to collect maintenance fees by one year
in the amount of $17 million and the FY 2003 appropriations extended the authority to collect
fees again by one year in the amount of $21.5 million. Passage of the Pesticide Registration
Improvement Act (PRIA) in 2004 extended the authority to collect maintenance fees through FY
2008 (with annual fee amounts at $26 million in FY 2004; $27 million in FY 2005-2006; $21
million in FY 2007; and $15 million in FY 2008). Passage of the Pesticide Registration
Improvement Renewal Act (commonly referred to as PRIA II) in 2007 extended the authority to
collect maintenance fees through FY 2012 (with annual fee amounts set at $22 million each year
from 2008-2012). For FYs 2011 and 2010, the FIFRA Revolving Fund received funding from
maintenance fees collected on existing registered pesticide products and from interest collected
on investments in U.S. Government securities. For FYs 2011 and 2010 revenues were
recognized from fee collections to the extent that expenses are incurred during the fiscal year.

F. Funds with the Treasury

The FIFRA fund deposits receipts and processes disbursements through its operating account
maintained at the U.S. Department of Treasury. Cash funds in excess of immediate needs are
invested in U.S. Government securities.




12-1-0521                EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                   15
G. Investments in U. S. Government Securities

Investments in U. S. Government securities are maintained by Treasury (Bureau of Public Debt)
and are reported at amortized cost net of unamortized discounts. Discounts are amortized over
the term of the investments and reported as interest income. FIFRA holds the investments to
maturity, unless needed to finance operations of the fund. No provision is made for unrealized
gains or losses on these securities because, in the majority of cases, they are held to maturity.

H. General Property, Plant and Equipment

General property, plant and equipment for FIFRA consists of software in development. All
funds (except for the Working Capital Fund) capitalize software if those investments are
considered Capital Planning and Investment Control (CPIC) or CPIC Lite systems with the
provisions of SFFAS No. 10, “Accounting for Internal Use Software.” Once software enters the
production life cycle phase, it is depreciated using the straight-line method over the specific
asset’s useful life ranging from two to 10 years.

I. Accounts Receivable and Interest Receivable

FIFRA receivables are mainly for interest receivable on investments.

J. Liabilities

Liabilities represent the amount of monies or other resources that are likely than not to be paid
by the Agency as the result of an Agency transaction or event that has already occurred and can
be reasonably estimated. However, no liability can be paid by the Agency without an
appropriation or other collections. Liabilities for which an appropriation has not been enacted
are classified as unfunded liabilities, and there is no certainty that the appropriations will be
enacted. For FIFRA, liabilities are liquidated from fee receipts and interest earnings, since
FIFRA receives no appropriation. Liabilities of the Agency, arising from other than contracts
can be abrogated by the Government acting in its sovereign capacity.

K. Accrued Unfunded Annual Leave

Annual, sick and other leave is expensed as taken during the fiscal year. Sick leave earned but
not taken is not accrued as a liability. Annual leave earned but not taken as of the end of the
fiscal year is accrued as an unfunded liability. Accrued unfunded annual leave is included in the
Balance Sheet as a component of “Payroll and Benefits Payable.”

L. Retirement Plan

There are two primary retirement systems for Federal employees. Employees hired prior to
January 1, 1987, may participate in the Civil Service Retirement System (CSRS). On January 1,
1984, the Federal Employees Retirement System (FERS) went into effect, pursuant to Public
Law 99-335. Most employees hired after December 31, 1983, are automatically covered by
FERS and Social Security. Employees hired prior to January 1, 1984, elected to either join FERS


12-1-0521                EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                    16
and Social Security or remain in CSRS. A primary feature of FERS is that it offers a savings plan
to which the Agency automatically contributes one percent of pay and matches any employee
contributions up to an additional four percent of pay. The Agency also contributes the
employer’s matching share for Social Security.

With the issuance of SFFAS No. 5, "Accounting for Liabilities of the Federal Government,"
accounting and reporting standards were established for liabilities relating to the federal
employee benefit programs (Retirement, Health Benefits, and Life Insurance). SFFAS No. 5
requires that the employing agencies recognize the cost of pensions and other retirement benefits
during their employees’ active years of service. SFFAS No. 5 requires that the Office of
Personnel Management (OPM), as administrator of the CSRS and FERS, the Federal Employees
Health Benefits Program, and the Federal Employees Group Life Insurance Program, provide
federal agencies with the actuarial cost factors to compute the liability for each program.

M. Use of Estimates

The preparation of financial statements requires management to make certain estimates and
assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
revenue and expenses during the reporting period. Actual results could differ from those
estimates.

Note 2. Fund Balance with Treasury

                                                FY 2011           FY 2010

Revolving Funds: Entity Assets            $          3,541 $             4,174



Note 3. Other Assets – Advances to Working Capital Fund

FIFRA advances funds to the EPA’s Working Capital Fund to pay for computer, postage, and
other administrative support services. As of September 30, 2011 and 2010, funds advanced that
will be applied to future costs as incurred were $0 and $92 thousand respectively.

Note 4. General Property, Plant and Equipment

General property, plant and equipment consists of software and software in development.

As of September 30, 2011 and 2010, General Property, Plant and Equipment consist of the
following:




12-1-0521                EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                     17
                                       FY 2011                                       FY 2010

                       Acquisition  Accumulated     Net Book     Acquisition  Accumulated          Net Book

                         Value      Depreciation     Value         Value      Depreciation          Value

Software                      905           (248)        657            909              -              909
 Total               $        905 $         (248) $      657   $        909 $            0       $      909




Note 5. Other Liabilities

For FYs 2011 and 2010, the Payroll and Benefits Payable, non-Federal, are presented on a
separate line of the Balance Sheet and in a separate footnote (see Note 6).

                                                               FY 2011               FY 2010
Other Intragovernmental Liabilities - Covered by
Budgetary Resources
Employer Contributions - Payroll                           $       326           $         200
      Total                                                $       326           $         200


Other Non-Federal Liabilities – Covered by
Budgetary Resources
Advances from Non-Federal Entities                         $      7,052          $       7,039
      Total                                                $      7,052          $       7,039


Note 6. Payroll and Benefits Payable, non-Federal

                                                           FY 2011                   FY 2010
           Covered by Budgetary Resources
           Accrued Payroll Payable to Employees        $       1,153         $             589
           Withholdings Payable                                  180                       277
           Thrift Savings Plan Benefits Payable                   54                        32
                   Total                               $       1,387         $             898

           Not Covered by Budgetary Resources
           Unfunded Annual Leave Liability             $       1,826         $           1,371




12-1-0521                  EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                               18
At various periods throughout FYs 2011 and 2010, employees with their associated payroll costs
were transferred from the FIFRA fund to the Environmental Programs and Management (EPM)
appropriation. (See graph in Note 7 below showing trend of hours charged per month to the
FIFRA fund for FYs 2011 and 2010.) These employees were transferred in order to keep
FIFRA’s obligations and disbursements within budgetary and cash limits. When resources
became available, the employees charging to FIFRA increased in order to utilize resources as
much as possible. The Agency expects that the practice of transferring employees when
FIFRA’s resources are low, and restoring employees when funds become available, will continue
throughout FY 2012 and probably beyond that period.

This process has led to variations between the year-end liabilities for FYs 2011 and 2010. The
liabilities covered by budgetary resources (both intragovernmental and non-Federal) represent
unpaid payroll and benefits at year-end. At the end of FY 2011, no employees were charging
their salary and benefits to FIFRA compared to 149 employees for the end of FY 2010. As of
September 30, 2011 these liabilities were $326 thousand and $1,387 thousand for employer
contributions and accrued funded payroll and benefits, as compared to FY 2010's balances of
$200 thousand and $898 thousand, respectively.

In contrast, the unfunded annual leave liability is a longer term liability than the funded
liabilities. At various periods throughout FYs 2011 and 2010, approximately 258 and 243
employees, respectively, in total have been under FIFRA’s accountability. During the last pay
period of FY 2011, all FIFRA employees had been transferred to EPM so the liability was
computed based on no employees charging to FIFRA in the last pay periods covering the
timeframe from August 28, 2011 through September 30, 2011. Both the September 30, 2011 and
2010 liability balances for unfunded annual leave were accrued to cover the employees charged
to FIFRA close to the end of the fiscal year for a total of $1,826 thousand and $1,371 thousand,
respectively.

Note 7. Income and Expenses from Other Appropriations

The Statement of Net Cost reports program costs that include the full costs of the program
outputs and consist of the direct costs and all other costs that can be directly traced, assigned on a
cause and effect basis, or reasonably allocated to program outputs.

During FYs 2011 and 2010, the EPA had two appropriations which funded a variety of
programmatic and non-programmatic activities across the Agency, subject to statutory
requirements. The EPM appropriation was created to fund personnel compensation and benefits,
travel, procurement, and contract activities. Transfers of employees from FIFRA to EPM at
various times during these years (see Note 6 above) resulted in an increase in payroll expenses in
EPM, and these costs financed by EPM are reflected as an increase in the Expenses from Other
Appropriations on the Statement of Net Cost. The increased financing from EPM is reported on
the Statement of Changes in Net Position as Income from Other Appropriations.

In terms of hours charged to FIFRA each month, the transfers of employees and their associated
costs during FYs 2011 and 2010 are shown below. Note that a decrease in hours charged to
FIFRA normally signifies an increase in EPM’s payroll costs, and vice versa. In addition,


12-1-0521                 EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                         19
Pesticide registration was separated from FIFRA starting with FY 2004 and Pesticide has its own
set of financial statements.


                              FIFRA ‐ Total Employee Hours by Month
                    45,000 

                    40,000 

                    35,000 

                    30,000 
   Employee Hours




                    25,000 

                    20,000                                                               FY 2011 Total Hours
                                                                                         FY 2010 Total Hours
                    15,000 

                    10,000 

                     5,000 

                         ‐




EPM costs related to FIFRA are allocated based on specific EPM program codes which have
been designated for Pesticide activities. As illustrated below, there is no impact on FIFRA’s
Statement of Changes in Net Position.


                                  Income From Other          Expenses From Other            Net
                                    Appropriations             Appropriations              Effect

                      FY 2011 $                35,439    $                  35,439   $            0

                      FY 2010 $                36,268    $                  36,268   $            0




12-1-0521                          EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                               20
Note 8. Exchange Revenues, Statement of Net Cost

For FYs 2011 and 2010, the exchange revenues reported on the Statement of Net Cost include
both Federal and non-Federal amounts.

Note 9. Intragovernmental Costs and Exchange Revenue

                                                          FY 2011            FY 2010
            COSTS:
              Intragovernmental                       $      5,822      $         8,221
              With the Public                               19,319               17,656
              Expenses from Other Appropriations            35,439               36,268
             Total Costs                              $     60,580      $        62,145

            REVENUE:
              With the Public                               22,688               23,231
             Total Revenue                            $     22,688      $        23,231

            NET COST OF OPERATIONS                    $     37,892      $        38,914


Intragovernmental costs relate to the source of the goods or services not the classification of the
related revenue.




12-1-0521                 EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                      21
Note 10. Reconciliation of Net Cost of Operations to Budget (formerly the Statement of
Financing)
                                                                                   FY 2011         FY 2010
RESOURCES USED TO FINANCE ACTIVITIES:
Budgetary Resources Obligated
Obligations Incurred                                                           $     24,046    $     24,473
Less: Spending Authority from Offsetting
  Collections and Recoveries                                                        (22,704)         (22,086)
Obligations, Net of Offsetting Collections                                     $      1,342    $       2,387
Other Resources
 Imputed Financing Sources                                                     $        347    $      1,589
Income from Other Appropriations (Note 7)                                            35,439          36,268
Net Other Resources Used to Finance Activities                                 $     35,786    $     37,857

Total Resources Used To Finance Activities                                     $     37,128    $     40,244

RESOURCES USED TO FINANCE ITEMS
NOT PART OF NET COST OF OPERATIONS
 Change in Budgetary Resources Obligated for Goods                             $        54     $        (993)
 Resources that Fund Prior Period Expenses                                               -              (343)
 Resources that Finance Asset Acquisition                                             (862)                -
Total Resources Used to Finance Items Not Part of the Net Cost of Operations   $      (808)    $      (1,336)

Total Resources Used to Finance the Net
 Cost of Operations                                                            $     36,320    $     38,908

COMPONENTS OF NET COST OF OPERATIONS
THAT WILL NOT REQUIRE OR GENERATE
RESOURCES IN THE CURRENT PERIOD
Components Requiring or Generating Resources in Future Periods:
  Increase in Annual Leave Liability                                                   455                -
  Other                                                                                  2                6
Total components of Net Cost of Operations that Require or Generate
   Resources in Future Periods                                                         457                 6

Components Not Requiring/Generating Resources
 Depreciation and Amortization                                                 $        248    $             -
 Expenses Not Requiring Budgetary Resources                                             867                  -
Total Components of Net Cost that Will Not Require or Generate Resources       $      1,115    $             -

Total Components of Net Cost of Operations That Will Not Require or
 Generate Resources in the Current Period                                      $      1,572    $          6

Net Cost of Operations                                                         $    37,892     $    38,914




12-1-0521                    EPA’s FY 2011 Annual FIFRA Financial Statements
                                                                                                                 22
                                                                                      Appendix B

                 Agency’s Response to Draft Report

                                           May 1, 2012


MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report: “Fiscal Year 2011 and
               2010    Financial Statements for the Pesticides Reregistration and Expedited
               Processing Fund,” Assignment No. 12-P-XXXX, dated April 20, 2012

FROM:          Barbara J. Bennett    /s/ Original Signed By:
               Chief Financial Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Attention to the issues identified in the draft report should help further strengthen
the agency’s fiscal integrity. Attached is our corrective action plan in response to the specific
recommendations made in the draft report.

If you have any questions regarding this response, please contact Sandy Dickens of the Office of
Financial Management on (202) 564-0606.


Attachment

cc: 	Maryann Froehlich
     Joshua Baylson
     Steven Bradbury
     Marty Monell
     Melvin Visnick
     Kimberly Dubbs
     Jeanne Conklin
     Dale Miller
     Chris Osborne
     Sherri Anthony
     Sandy Dickens
     Janet Weiner
     Janice Kern
     Sheldonna Proctor


12-1-0521

    Elizabeth Leovey
    John Street
    Michael Hardy
    Melissa Heist
    Meg Hiatt
    Paul Curtis
    Robert L. Smith
    Art Budelier
    Sheila May
    Bill Samuel




12-1-0521

                                                 Attachment

                  Response to Office of Inspector General Draft Report No. 12-P-XXXX
           “Fiscal Year 2011 and 2010 Financial Statements for the Pesticides Reregistration and
                                      Expedited Processing Fund,”
                                           dated April 20, 2012

Rec.                                                                          Action           Estimated
           OIG Recommendation            Proposed Corrective Action
No.                                                                           Official       Completion Date

 1.    Correct the FIFRA and PRIA        1.1 OCFO/OFM will correct          Office of the      03/05/2012
       financial statements to reflect   the FIFRA and PRIA                Chief Financial    (Completed)
       the proper payroll and benefits   financial statements to reflect   Officer/Office
       payable amounts.                  the proper payroll and             of Financial
                                         benefits payable amounts.          Management




 2.    Closely monitor the payroll and   2.1 OCFO/OFS will closely          Office of the      09/30/2012
       benefit accruals for the FIFRA    monitor the payroll and           Chief Financial
       and PRIA at year-end.             benefit accruals for the          Officer/Office
                                         FIFRA and PRIA at year-            of Financial
                                         end.                                 Services




       12-1-0521

                                                                                    Appendix C

                                      Distribution
Office of the Administrator
Chief Financial Officer
Acting Assistant Administrator for Chemical Safety and Pollution Prevention
Assistant Administrator for Administration and Resources Management
Deputy Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intragovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution Prevention
Deputy Director, Office of Pesticide Programs, Office of Chemical Safety and Pollution
       Prevention
Senior Advisor, PRIA Implementation, Office of Pesticide Programs, Office of Chemical Safety
        and Pollution Prevention
Director, Biopesticides and Pollution Prevention Division, Office of Pesticide Programs, Office
       of Chemical Safety and Pollution Prevention
Director, Pesticide Re-Evaluation Division, Office of Pesticide Programs, Office of Chemical
       Safety and Pollution Prevention
Director, Registration Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Antimicrobials Division, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention
Director, Information Technology and Resources Management Division, Office of Pesticide
       Programs, Office of Chemical Safety and Pollution Prevention
Director, Office of Human Resources, Office of Administration and Resources Management
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Acting Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of Financial Services, Office of the
         Chief Financial Officer
Staff Director, Accountability and Control Staff, Office of Financial Services, Office of the Chief
       Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Administration and Resources Management
FIFRA Audit Coordinator, Office of Pesticide Programs, Office of Chemical Safety and
       Pollution Prevention


12-1-0521

